Report No. D-2009-047        January 29, 2009




   DoD Testing Requirements for Body Armor
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
BFD                           Back Face Deformation
COPD                          Contract Purchase Description
COTR                          Contracting Officer Technical Representative
DOT&E                         Director, Operational Test and Evaluation
ESAPI                         Enhanced Small Arms Protective Inserts
IG                            Inspector General
PEO                           Program Executive Office
QMD                           Quantitative Methods Directorate
SAPI                          Small Arms Protective Inserts
USSOCOM                       U.S. Special Operations Command
                                 INSPECTO R GENERAL
                                DEPARTM ENT OF DEFE NSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON , VI RGINIA 22202-4704


                                                                          January 29, 2009


MEMORANDUM FOR SECRETARY OF THE ARMY
               DIRECTOR, OPERATIONAL TEST AND EVALUATION
               PROGRAM EXECUTIVE OFFICER SOLDIER

SUBJECT: DoD Testing Requirements for Body Armor (Report No. D-2009-047)


We are providing this report for review and comment. We considered comments on a
draft of the report when preparing the fina l report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Secretary of the Army's comments were responsive to Recommendation A.I. The
Principal Deputy Assistant Secretary ofthe Army (Acquisition, Logistics, and
Technology) endorsed and forwarded comments from the 'Program Executive Officer
Soldier which were responsive to Recommendations A.2.a. and A2.b. The comments of
the Director, Operational Test and Evaluation were responsive to Recommendations Rl.
and B-2. We expanded Recommendation A. I. to include a request for a plan of action to
implement the recommendation within 30 days of the report. Recommendation A.2.c.
was added to the final report. We request comments on Recommendations A.I. and
A.2.c. by March 30, 2009.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send your comments in electronic fonnat (Adobe Acrobat file only) to
AudJ&OO@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the / Signed I symbol
in place of the actual signature. !fyou arrange to send classified comments
electronically. you must send them over the SECRET Internet Protocol Router Network
(SlPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8905 (DSN 664-8905).




                                     Paul . Granetto
                          Principal Assistant Inspector General
                                      for Auditing
                       Report No. D-2009-047 (Project No. D2008-D000JA-0263.000)
                                            January 29, 2009

                 Results in Brief: DoD Testing Requirements
                 for Body Armor
                                                                DoD does not have standardized ballistic testing
What We Did                                                     criteria for body armor ballistic inserts. Army and
We reviewed whether first article testing for the               USSOCOM officials developed separate ballistic
Enhanced Small Arms Protective Inserts for Army                 testing criteria for body armor. The criteria differed
contract W91CRB-04-D-0040 (Contract 0040) was                   significantly, even when testing against the same
conducted in accordance with contract requirements.             threats. Differences included the number of plates
We also reviewed the basis for first article testing            tested (sample size), the shot pattern, the
criteria used by the U.S. Army and U.S. Special                 environmental conditions, the type of tests, and the
Operations Command (USSOCOM). We did not                        pass/fail guidelines. As a result, DoD does not have
review the safety of the ballistic inserts; therefore,          assurance that its body armor provides a standard
we did not determine whether these inserts provide              level of protection.
the protection intended.
                                                                What We Recommend
What We Found                                                   We recommend that the Army immediately identify
First article testing for Army Contract 0040 was not            and facilitate the return of the 16,413 sets of design
consistently conducted or scored in accordance with             M3D2S2, MP2S2, and M4D2 ballistic inserts
contract terms, conditions, and specifications.                 purchased under Army Contract 0040, and remove
Consequently, we believe three of the eight ballistic           the ballistic inserts from inventory. Return of the
insert designs that passed first article testing actually       MH3 design is not required as no inserts of that
failed (ballistic insert designs M3D2S2, MH3, and               design were purchased.
MP2S2). We had concerns about another first
article test (design M4D2), but insufficient test data          We recommend that the Army implement controls to
precluded us from determining the impact of the                 ensure that changes to body armor contracts are
inconsistent testing and scoring processes. As a                approved by the contracting officer in accordance
result, the Army does not have assurance that all               with the Federal Acquisition Regulation.
inserts purchased under Contract 0040 provide the
level of protection required by the contract. This              We recommend that the Director, Operational Test
underscores the need for internal controls to ensure            and Evaluation (DOT&E) develop a test operations
adequate oversight of the first article testing process         procedure for body armor ballistic inserts and
and proper review and approval of the first article             involve the Services and USSOCOM to verify the
test results.                                                   procedure is implemented DoD-wide.

The contracting officer technical representative                Client Comments and Our
made an unauthorized change to Contract 0040 by                 Response
instructing the testing facility officials to deviate           Recommendation A.2.c. was added to the final
from the Contract Purchase Description without                  report. Officials from the Army and DOT&E
approval from the contracting officer. Because we               disagreed with our finding that ballistic insert
reviewed only one contract, we can not report on the            designs M3D2S2, M4D2, and MP2S2 actually failed
effect of the unauthorized change on other body                 first article testing and that the designs should be
armor contracts. The audit team conducting DoD                  returned. However, the Secretary of the Army
Inspector General Project No. D2008-D000CD-                     agreed to order the identification and collection of
0256.000, “Research on DoD Body Armor                           the designs pending Deputy Secretary of Defense
Contracts,” will determine whether unauthorized                 adjudication of the issue to ensure there is no
changes were made to the body armor contracts                   question concerning body armor effectiveness
under their review and the effect of those changes on           (Recommendation A.1.). The Army and DOT&E
the first article test results.                                 agreed with Recommendations A.2.a., A.2.b., B.1.,
                                                                and B.2. See the recommendations table on page ii.

                                                            i
                Report No. D-2009-047 (Project No. D2008-D000JA-0263.000)
                                     January 29, 2009

Recommendations Table
Client                           Recommendations            No Additional Comments
                                 Requiring Comment          Required
Secretary of the Army            A.1.

Program Executive Officer        A.2.c.                     A.2.a. and A.2.b.
Soldier
Director, Operational Test and                              B.1. and B.2.
Evaluation


Please provide comments by March 30, 2009.




                                          ii
Table of Contents

Results in Brief                                                      i

Introduction                                                          1

       Objectives                                                    1
       Background                                                    1
       Scope Limitation                                              5
       Review of Internal Controls                                   5

Finding A. First Article Testing for Contract W91CRB-04-D-0040        7

       Client Actions                                                13
       Client Comments on the Finding and Our Response               14
       Recommendations, Client Comments, and Our Response            20

Finding B. First Article Testing Criteria for the Army and USSOCOM   25

       Client Actions                                                32
       Client Comments on the Finding and Our Response               33
       Recommendations, Client Comments, and Our Response            34

Appendices
     A. Scope and Methodology                                        35
           Prior Coverage                                            36
     B. Use of Technical Assistance                                  37
     C. Analysis of First Article Test Results for
           Contract 0040                                             39

Client Comments

       Department of the Army                                        43
       Director, Operational Test and Evaluation                     52
       U.S. Special Operations Command                               56
Introduction
Objectives
The overall objective of our audit was to evaluate ballistic testing requirements for body
armor components. We specifically reviewed whether the Enhanced Small Arms
Protective Inserts (ESAPI) first article testing criteria for Army contract W91CRB-04-D-
0040 (Contract 0040) were in accordance with the contract. We also reviewed the basis
for first article testing criteria used by the U.S. Army and U.S. Special Operations
Command (USSOCOM). Although an announced objective, we did not review first
article testing criteria for the other contracts reviewed as part of DoD Inspector
General (IG) Report No. D-2008-067, “DoD Procurement Policy for Body Armor,”
March 31, 2008. That objective will be addressed in DoD IG Project No. D2008-
D000CD-0256.000, “Research on DoD Body Armor Contracts.”

Background
This report is the third in a series of reports on DoD body armor and armored vehicles
issued in response to requests from Representative Louise M. Slaughter, 28th District,
New York, and Senator James H. Webb, Virginia. DoD IG Report No. D-2007-107,
“DoD Procurement Policy for Armored Vehicles,” June 27, 2007, and D-2008-067
addressed Representative Slaughter’s request that the DoD IG review the procurement of
body armor and armored vehicles to determine whether DoD officials followed
contracting policies. DoD IG Project No. D2008-D000CD-0256.000 was initiated in
August 2008 as a follow-on to D-2008-067 to examine the contracting processes for body
armor and the related test facilities. The Defense Criminal Investigative Service
addressed Senator Webb’s request that the DoD IG conduct a special investigation into
Army body armor testing conducted in 2005 at the H.P. White Laboratory Inc., Street,
Maryland, and in 2007 at the Army Test Center, Aberdeen, Maryland. That investigation
was closed. Audit personnel who assisted with the investigation identified procedural
issues concerning body armor ballistic testing requirements. This report addresses those
issues.

DoD Body Armor
The Army and USSOCOM use two primary types of body armor—Interceptor Body
Armor and the Special Operations Forces Personal Equipment Advanced Requirements.
Both types are designed to offer increased protection to the warfighter by stopping or
slowing bullets and fragments and reducing the number and severity of wounds.

The Army uses Interceptor Body Armor, which consists of an Outer Tactical Vest, front
and back ESAPI; Deltoid and Axillary Protectors; and Enhanced Side Ballistic Inserts
(see Figure 1). The Program Executive Office (PEO) Soldier, Project Manager, Soldier
Equipment, is the Army program office responsible for managing the Interceptor Body
Armor program.




                                            1
     ESAPI Ballistic                                       Deltoid Axillary Protector
      Inserts (set)                                                  (DAP)




      Outer Tactical
       Vest (OTV)                                                  Side Plates




Figure 1. Interceptor Body Armor

The USSOCOM Special Operations Forces Personal Equipment Advanced Requirements
program includes the Releasable Body Armor Vest, hard armor plates, and soft armor
inserts. Ancillary components, such as shoulder plates, side plates, and groin and neck
protectors, can be used with the Releasable Body Armor Vest (see Figure 2). The vest
also incorporates a “quick-release” mechanism that can be used in emergencies to allow
the warfighter to rapidly remove the vest. The PEO Special Operations Forces Warrior
Program Manager, Special Operations Forces Survival Systems, is responsible for
managing the Special Operations Forces Personal Equipment Advanced Requirements
program.




                                           2
                                                              Shoulder Plate ( 2)



         Torso Plate ( 2)




                                                                Side Plate ( 2)


              Groin Plate (1)


Figure 2. Releasable Body Armor Vest

Body Armor Ballistic Testing
Body armor ballistic testing is conducted to determine the resistance to penetration and
the ballistic limit of body armor test samples. The objective of resistance to penetration
or “V0 testing” is to fire projectiles at a constant velocity to demonstrate that the armor
samples provide specified protection against required threats. This test determines at
what velocity the bullet will have a 0 percent chance of penetrating a given piece of
armor. For each threat, the body armor must defeat the specified number of impacts
within the parameters established in the Contract Purchase Description (COPD) or
performance specification. Those parameters include the acceptable number of complete
and partial penetrations and the maximum depth of the back face deformation (BFD) for
partial penetrations. A complete penetration occurs when the threat projectile, fragment
of that projectile, or fragment of the armor material is imbedded or passes into the clay
backing material (the clay is a substitute for a warfighter’s body mass). A partial
penetration is any fair impact that does not result in a complete penetration. The BFD is
the depth of the crater left in the clay for each partial penetration and represents the blunt
force trauma inflicted on the wearer, which can contribute to injury, incapacitation, or
death. See Figure 3 for an illustration of partial and complete penetrations.




                                              3
Figure 3. Illustration of Partial and Complete Penetrations

Ballistic limit or “V50 testing”1 is conducted to determine the velocity at which a
complete penetration or incomplete penetration of the body armor is equally likely to
occur. The V50 is determined by shooting the piece of armor several times, with the same
type of threat, across a broad range of velocities. The COPD contains the V50
requirement, and the calculated V50 during the test must meet that requirement.

DoD ballistic testing is conducted at National Institute of Justice certified indoor ranges
with a specific test setup (see Figure 4) and test condition requirements as defined in the
applicable contract. The body armor samples are tested under “ambient” or room
temperature conditions and after being subjected to selected environmental conditions
such as hot and cold temperatures, saltwater, oil, fuel, or after being dropped. Once the
body armor is ready for testing, it is strapped to the clay backing material, and ballistic
testing is conducted.




1
 We limited our review to analyze V0 testing since the V50 test results are not always used to determine
whether body armor samples pass or fail first article testing.


                                                     4
Figure 4. Typical Indoor Range Setup

First Article Testing
First article testing determines whether the proposed product design conforms to contract
requirements before or in the initial stage of production. During first article testing, the
proposed design is evaluated to determine the probability of consistently demonstrating
satisfactory performance and the ability to meet or exceed evaluation criteria specified in
the COPD. Successful first article testing certifies a specific design configuration and the
manufacturing process used to produce the test articles. Failure of first article testing
requires the contractor to examine the specific design configuration to determine the
improvements needed to correct the performance of subsequent designs. Any change to
the design configuration or manufacturing process (designs, materials, machines, process
parameters) invalidates the previous first article test and requires additional first article
testing to verify that the product still meets requirements.

Scope Limitation
We limited the scope of our audit to first article testing of the front and back ballistic
inserts used in the Army’s Interceptor Body Armor and the USSOCOM Special
Operations Forces Personal Equipment Advanced Requirements program. We did not
review first article testing for other hard or soft body armor components, such as the side
plates and tactical vests. In addition, we limited our review to analyze V0 testing since
the V50 results are not always used to determine whether a contractor passes or fails the
first article test. We did not review the safety of the ballistic inserts, and therefore, we
did not determine whether these inserts provide the protection intended.

Review of Internal Controls
We determined that material internal control weaknesses existed within the Army’s
testing and scoring processes for body armor first article testing as defined by DoD
Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4, 2006.



                                              5
The Army did not have internal control procedures to ensure adequate oversight of the
first article testing process and proper review and approval of the first article testing
results. Implementing Recommendations A.2.a. and A.2.b. will improve the Army’s
body armor first article testing process by ensuring that the testing facility and scoring
officials follow contract terms, conditions, and specifications. We will provide a copy of
the report to the senior Army official responsible for internal controls.




                                            6
Finding A. First Article Testing for
Contract W91CRB-04-D-0040
First article testing for Contract 0040 was not consistently conducted or scored in
accordance with contract terms, conditions, and specifications. Specifically, for the
21 first article tests conducted for Contract 0040,

       testing facility officials did not consistently follow the test plan or COPD
        requirements for the fair shot determination, measurement of BFD, or plate size;
        and
       the PEO Soldier scoring official could not provide adequate documentation that
        explained why certain plates were selected for scoring and others were
        disregarded during the scoring process.

The inconsistent testing and scoring processes resulted in a passing first article test for
ballistic insert designs M3D2S2, MH3, and MP2S2, when otherwise those designs would
have failed. In addition, insufficient test data concerning the first article test for ballistic
insert design M4D2 precluded us from determining the impact of the inconsistent testing
and scoring processes on the results of that test. First article testing is conducted to
ensure that a design meets established contract requirements; inconsistent testing and
scoring processes increase the risk that the designs not meeting technical requirements
will not be detected. Although the ballistic inserts must also pass lot acceptance testing
before being fielded, the Army’s lot acceptance testing process for body armor is less
stringent than first article testing, and its results do not ensure that the contractor’s design
meets all contract specifications.

Although we did not review the safety of these ballistic inserts, the Army does not have
assurance that all inserts purchased under Contract 0040 provide the level of protection
required by the contract. Therefore, the Army should immediately identify and facilitate
the return of the M3D2S2, MP2S2, and M4D2 design ballistic inserts and remove them
from inventory. Return of the MH3 design is not required as no inserts of that design
were purchased. In addition, to improve first article testing, the Army needs to establish
the controls necessary to prevent and reduce the risk of further noncompliance and error
during the testing and scoring processes.

We were also concerned that the contracting officer technical representative (COTR)
made an unauthorized change to Contract 0040 by instructing the testing facility officials
to deviate from the COPD and use an offset correction technique (a mathematical
formula used to adjust the BFD). The PEO Soldier COTR communicated this change by
e-mail to the testing facility without approval from the contracting officer. Because we
reviewed only one contract, we can not report on the effect of the change on the Army’s
other body armor contracts. The audit team conducting DoD IG Project No. D2008-
D000CD-0256.000 “Research on DoD Body Armor Contracts,” will determine whether
these conditions exist on the body armor contracts under their review and the effect of



                                               7
those changes on the first article test results. To prevent future unauthorized contract
changes, the Army should implement controls to ensure that future changes to the contract
are executed by the contracting officer in accordance with Federal Acquisition
Regulation 43.102.

Contract 0040
Contract 0040 was one of seven contracts awarded under Solicitation W91CRB-04-R-
0033, which was issued by the U.S. Army Research Development and Engineering
Command Acquisition Center on May 19, 2004. The solicitation was for the purchase of
three types of body armor ballistic inserts for the Interceptor Body Armor—the Small
Arms Protective Inserts (SAPI), overweight SAPI, and ESAPI. The SAPI were designed
to provide protection from three ballistic threats (A, B, and C).2 The overweight SAPI
provided the same ballistic protection as the SAPI but did not meet the SAPI weight
requirements. The SAPI were replaced by the ESAPI, which were designed to defeat an
additional threat (threat D).

Contract 0040 was awarded on August 19, 2004, for SAPI and overweight SAPI only.
The contract award did not initially include the ESAPI because the contractor had not
passed first article testing for its ESAPI design. In June 2005, the contractor’s ESAPI
design passed first article testing and in September 2005, Contract 0040 was modified to
include the ESAPI. All of the 21 first article tests conducted for Contract 0040 were
conducted on ESAPI, the contractor having met first article testing requirements for SAPI
during a previous contract. Of those 21 first article tests, 13 resulted in failures and
8 resulted in passing scores. The Army purchased 51,334 sets of ESAPI for
$57,107,890.00 under Contract 0040.

The Research Development and Engineering Command Acquisition Center administered
Contract 0040 until the contractor met all deliverables in February 2008. PEO Soldier
had technical responsibility for the contract.

First Article Test Plan and Scoring Criteria
The first article test plan was an attachment to Contract 0040 and defined the size and
number of plates the contractor was required to submit for testing. The plan also
identified the threats that the SAPI, overweight SAPI, and ESAPI were required to defeat.
For SAPI, the contractor was required to submit 35 plates for first article testing: 5 extra
small, 9 small, 8 medium, 8 large, and 5 extra large. Of those 35 plates, 9 were used for
V50 testing, 16 for V0 testing, and the Government and the contractor each retained
5 plates as the manufacturing standard. During V0 testing, the SAPI were required to
stop three shots against threats A, B, and C. For ESAPI, the contractor was required to
submit 35 plates for first article testing, 7 of each size. Of those 35 plates, 12 plates were
used for V50 testing, 13 for V0 testing, and the Government and the contractor each
retained 5 plates as the manufacturing standard. During V0 testing, the ESAPI were
required to stop three shots against threats A, B, and C, and two shots against threat D.


2
    The specific ballistic threats are classified so we refer to the threats as A, B, C, and D.


                                                          8
The COPD contained the criteria for passing SAPI and overweight SAPI first article
testing. According to the COPD, the contractor passed if the plates experienced no
complete penetrations on the first, second, or third shots and if the BFD did not exceed
43 millimeters on the first or second shot. If a complete penetration did occur or the BFD
exceeded 43 millimeters, the contractor failed the first article test.

The COPD also contained the criteria the plates had to meet to pass ESAPI first article
testing. However, PEO Soldier officials stated that they did not use the criteria in the
COPD because industry could not meet the BFD or partial penetration requirements.
Therefore, PEO Soldier officials developed a separate scoring system to score the first
article tests. According to PEO Soldier officials, the ESAPI lot acceptance scoring
criteria, which were documented in solicitation W91CRB-04-R-0033, were used as a
baseline for scoring the ESAPI first article tests. The lot acceptance scoring criteria were
based on catastrophic and limited failures and a penalty point system that was applied to
the limited failures. A catastrophic failure was defined as a complete penetration of both
hard and soft armor on the first shot, or a BFD of greater than or equal to 48 millimeters
on the first shot. A limited failure could occur on either a first or second shot and was
assigned penalty points as follows:

       A complete penetration of the hard armor and a partial penetration of the soft
        armor on the first shot received 1 point.
       A complete penetration of both the hard and soft armor on the second shot
        received 1.5 points.
       A BFD greater than or equal to 44 millimeters but less than or equal to
        47 millimeters on the first shot received 1 point.
       A BFD greater than or equal to 44 millimeters on the second shot received
        1 point.

The points resulting from limited failures are assigned only when testing against threat D.
For threats A, B, or C, any complete penetration on the first, second, or third shot resulted
in a failed first article test. For threat D, the accumulation of more than six penalty points
resulted in a failed first article test.

Compliance With Testing and Scoring Criteria
During the 21 first article tests conducted for Contract 0040, the testing facility officials
did not always follow the COPD and test plan requirements for fair shot determination,
BFD measurement, or plate size (see Appendix C for our analysis of each of the 21 first
article tests). In addition, the testing facility officials did not consistently conduct retests
after deviating from the testing requirements. Because of the deviations from the test
requirements and the retests that were conducted by the testing facility officials, in some
instances the PEO Soldier scoring official had the opportunity to select certain plates for
scoring while disregarding others. The scoring official could not provide documentation
that explained why he selected certain plates for scoring and disregarded others. For
three of the eight first article tests the contractor passed, the selection of certain plates for
scoring resulted in the contractor passing the first article test when otherwise the
contractor would have failed. In addition, insufficient test data concerning an additional


                                                9
passed first article test precluded us from determining the impact of the inconsistent
testing and scoring processes on the results of that test.

Fair Shot Determination
The testing facility officials were inconsistent in their decision to follow the fair shot
determination criteria specified in the COPD during 2 of the 21 first article tests. The
COPD states that a fair shot occurs when the bullet strikes the plate in the required
location and within the required velocity range. For over velocity shots, the COPD states
that:

         if the shot does not result in a complete penetration, the shot should be
          considered fair and the test should proceed; but
         if the shot results in a complete penetration, the shot should not be considered
          fair, and the plate should be discarded.

The treatment of over velocity shots is based on the premise that if the plate can
withstand a higher velocity, it should withstand the required velocity. For under velocity
shots, the COPD states that:

        if the shot results in a complete penetration, the shot should be considered fair and
         the test should proceed;3 but
        if the shot does not result in a complete penetration, the shot should not be
         considered fair, and the plate should be discarded.

The treatment of under velocity shots is based on the premise that if the plate can not
withstand the lower velocity, it would not withstand the required velocity.

The inconsistencies that we identified concerned the treatment of over velocity shots.
During first article testing conducted on February 20 and November 7, 2007, shots on six
of the plates were over the required velocity. Because none of the shots resulted in a
complete penetration, the shots should have been considered fair, and the test should have
proceeded, according to the COPD. During the November 7, 2007, test, the testing
facility official complied with the COPD and correctly proceeded with testing. However,
even though the scenario was exactly the same for the February 20, 2007, test, the testing
facility official conducted retests on additional plates. The testing facility official
documented all of the shots, including the retests, and provided the test results to
PEO Soldier for scoring.

When scoring the test results for the February 20, 2007, first article test (design
M3D2S2), the PEO Soldier scoring official chose to use the test results for the retested
plates when he computed the test score. Use of the retested plates resulted in a score of
5.5 points, and the contractor passed the first article test. Had the scoring official
followed the fair shot acceptance criteria as stated in the COPD and used the initial plates

3
  If the first shot results in a complete penetration, the design fails the first article test. If the second shot
results in a complete penetration, the plate receives 1.5 points and the test proceeds.


                                                         10
that withstood the over velocity shot, the contractor would have accumulated an
additional 1.5 points (complete penetration on the second shot) and would have failed the
first article test with 7 points.

BFD Measurement
PEO Soldier instructed the testing facility to deviate from the COPD and use an offset
correction technique (a mathematical formula used to adjust the BFD) when measuring
the BFD. The testing facility official used this technique during 2 of the 21 first article
tests conducted under Contract 0040. The COPD required that the testing facility
officials measure the BFD at the deepest point in the clay depression after the bullet
impacted the plate. However, PEO Soldier officials stated that contractors complained
that the BFD measurement was not fair if the deepest point in the clay was not behind the
point of impact. Therefore, a PEO Soldier official instructed the testing facility in an
April 25, 2005, e-mail to use the offset correction technique if the deepest point in the
clay depression was not behind the bullet’s point of impact.

During the July 10, 2007, first article test (design MH3), the testing facility official used
the offset correction technique to decrease the BFD measurement on three plates. Use of
the technique resulted in the BFD being revised from 44 to 42 millimeters on the first
plate, 46 to 43 millimeters on the second plate, and 48 to 44 millimeters on the third
plate. Had the PEO Soldier scoring official followed the COPD when grading the first
article test, the design would have failed because of a 48 millimeter BFD on the third
plate. The testing facility official also used the offset correction technique during the
October 25, 2007, test (design M4D2), but because the original measurement was not
documented, we can not determine whether the contractor would have passed or failed
had the technique not been used.

Plate Size
The testing facility officials did not use the correct size plates required by the first article
test plan during 18 of the 21 first article tests for Contract 0040. In addition, the testing
facility officials were inconsistent in their decision to conduct retests when the incorrect
size plate was used.

The first article test plan requires a specific size plate for each test but does not provide
direction as to what testing facility officials are required to do if they test the incorrect
size plate. Analysis of the Contract 0040 test results indicated that the testing facility
officials tested the wrong size plate multiple times during 18 of the 21 first article tests
but conducted only one retest using the correct size plate during the September 12, 2007,
test (design MP2S2). During this test, the testing facility official initially tested a small,
medium, and large plate at threat D under ambient conditions instead of testing an extra
small, large, and extra large plate as required by the test plan. The testing facility official
subsequently tested an extra large plate and forwarded the results for all four plates to
PEO Soldier.

Although the PEO Soldier scoring official accepted and scored the incorrect size plates
for 17 of the 18 tests, he did not do so when scoring the MP2S2 design test results.


                                               11
Instead, he scored the extra-small, large, and extra-large plate and disregarded the
medium size plate. Scoring the extra-large plate instead of the medium plate resulted in a
passing test score, with 4 points. Had the scoring official scored the originally shot
medium plate (as he did with the other 17 tests), the contractor would have accumulated
an additional 2.5 points (1 point for a partial penetration on the first shot and 1.5 points
for a complete penetration on the second shot) and would have failed the first article test
with 6.5 points.

Increased Risk of Design Problems
Because of the inconsistent testing and scoring processes, the Army does not have
assurance that all inserts purchased under Contract 0040 provide the level of protection
required by the contract. Specifically, the inconsistencies during the February 20, July
10, and September 12, 2007 first article tests for Contract 0040 resulted in a passing test
when otherwise the contractor would have failed (designs M3D2S2, MH3, and MP2S2).
In addition, for the M4D2 design, the Army was unable to provide sufficient data to
allow us to determine whether the BFD offset correction technique resulted in a passing
test when otherwise the contractor would have failed.

First article testing ensures that a product meets contract technical specifications. A
failed first article test increases the risk that the product will not perform to those
specifications. Because of the implications of fielding ballistic inserts that may not fully
meet technical specifications, the Army should immediately identify and facilitate the
return of the M3D2S2, MP2S2, and M4D2 design ballistic inserts (return of the MH3
design is not required as no inserts of that design were purchased) and remove them from
inventory. The Army has facilitated a return of ballistic inserts in the past. Specifically,
the Army required a return of 8,018 ballistic inserts in December 2008.

Although the ballistic inserts must also pass lot acceptance testing before being fielded,
we do not consider lot acceptance testing a substitute for first article testing. For
Contract 0040, lot acceptance testing required 5 plates in a lot containing from 151 to
1,200 plates to be tested under ambient conditions against threat D. In contrast, first
article testing included 25 plates tested against threats A, B, C, and D in 7 environmental
conditions. Therefore, the lot acceptance testing process is not as comprehensive or
rigorous as first article testing and should not be relied upon to validate a plate design.

Controls Over the First Article Testing and Scoring
Processes
To improve first article testing, the Army needs to establish the controls necessary to
prevent further noncompliance and reduce error during testing and scoring. During the
testing process, a Government representative should be present to ensure that the testing
facility officials follow the testing requirements in the contract, COPD, and first article
test plan. The PEO Soldier scoring official stated that he tries to attend all first article
tests, and if he can not attend, he sends another PEO Soldier official in his place.




                                             12
However, H.P. White Laboratory Inc.4 maintains a database of all visitors that attend the
ballistic tests. According to the H.P. White Laboratory Inc. database, a PEO Soldier
official was present during only 4 of the 21 first article tests for Contract 0040. A
Government official was not present during three of the four tests first article tests that
we believe actually failed. PEO Soldier officials should require that a Government
official witness all first article testing and verify that the testing facility officials follow
the contract requirements. If deviations from the contract requirements occur and the
contracting officer approves the deviations through a contract modification, the official
should properly document the changes.

For the scoring process, the PEO Soldier scoring official scored the first article tests for
Contract 0040 and informed the contracting officer as to whether the contractor passed or
failed. The COTR stated that he was not required to send his results for higher level
review prior to submitting them to the contracting officer. After reviewing the COPD,
test plan, and first article tests, we determined that multiple inconsistencies and errors
occurred during the scoring of the tests for Contract 0040. PEO Soldier should establish
better controls over the scoring process by requiring higher level review and approval of
first article tests. Doing so will reduce the risk of continued scoring inconsistencies.

Client Actions
For the most recent body armor contract issued on October 3, 2008, the Army plans to
discontinue use of the BFD offset correction technique and instead use a laser scanner to
measure BFD. Military Standard 3027, “DoD Test Method Standard for Performance
Requirements and Testing of Body Armor,” September 30, 2008, requires use of the laser
scanner and states that the laser scanner provides a more accurate measurement of the
deepest point of the BFD. Because the Army is taking this action, we are not making a
recommendation concerning the use of the BFD offset correction technique.

In September 2008, the Army began non destructive testing of fielded body armor. The
body armor is collected in Kuwait for testing while soldiers are on rest and recuperation
leave. The test consists of a visual examination to determine whether there is any
external damage to the body armor. If external damage is present, the plate is rejected for
use. The plates are also x-rayed for cracks, and if cracks are evident, the plate is
submitted to Aberdeen Test Center, Aberdeen Proving Ground for ballistic testing. The
Army has begun to collect data from the non destructive testing and the subsequent
ballistic testing and is producing reports based on the data. We commend the Army for
initiating this testing and believe that it will provide needed data concerning the
durability and sustainability of the fielded body armor that can be used to improve future
body armor designs.




4
 All first article testing for Contract 0040 was conducted at H.P. White Laboratory Inc., a National Institute
of Justice certified laboratory.


                                                     13
Client Comments on the Finding and Our Response
Secretary of the Army Comments
The Secretary of the Army disagreed with our finding that the three ballistic insert
designs (M3D2S2, MP2S2, and M4D2) failed first article testing. The Secretary agreed
with DOT&E’s conclusion concerning the tests. DOT&E’s concluded that, “the DoD
Inspector General has identified significant issues with the documentation of the test
process and analysis (scoring). However, the three designs meet the performance
specification in place at the time of each test.” The Secretary stated that DOT&E is the
Government’s preeminent and independent authority on testing of this nature.

The Secretary stated that, in order to resolve the disagreement between the Army and the
DoD IG, he has requested, in accordance with DoD Directive 7650.3, that the Deputy
Secretary of Defense adjudicate the matter. However, to ensure that there can be no
question concerning the effectiveness of every soldier’s body armor, the Secretary stated
that he ordered that the plates at issue be identified and collected until the disagreement is
adjudicated.

The Secretary also stated that he associated himself with the January 16, 2009,
memorandum provided by the Principal Deputy Assistant Secretary of the Army
(Acquisition, Logistics, and Technology), which endorsed comments from PEO Soldier.
He further stated that as the Principal Deputy’s memorandum explains, the Army, with
DOT&E oversight, initiated comprehensive action to fix its testing system beginning in
June 2007.

The Secretary of the Army concluded that there is no higher priority for the Army than
the safety of the soldiers. He stated that anything that threatens the safety or erodes the
confidence of the soldiers, or the American people in the Army’s commitment to their
safety, is a matter of utmost importance to Army leadership.

Our Response
We agree that the Secretary of the Army has no higher priority than the safety of soldiers,
and he demonstrated that by agreeing to identify and collect the ballistic insert designs
that we believe failed first article testing (Recommendation A.1.). However, we disagree
with the Secretary’s position that the M3D2S2 and M4D2 designs met the performance
specifications in place at the time of each test. During first article testing for the
M3D2S2 design, the testing and scoring officials did not comply with the COPD
requirement for fair shot determination, and during first article testing for the M4D2
design, the testing facility officials did not comply with the COPD requirement for
measuring BFD. Had the testing facility officials followed the requirements in the
COPD, the designs would have failed. For the MP2S2 design, our issue did not pertain to
noncompliance with performance specifications, but with the testing and scoring
officials’ decision to conduct and score a retest. This was the only first article test (out of
18 tests) for which a retest was conducted when an incorrect size plate was initially shot;
had the initial plate been used to determine the first article test score, the MP2S2 design
would have failed.


                                              14
The Secretary of the Army stated in his comments that his position is adequately
supported by DOT&E, who concluded that the M3D2S2, M4D2, and MP2S2 designs
passed first article testing after a review of the first article test results and our draft report.
However, as we state in our response to DOT&E’s comments to finding A and
Recommendation A.1., DOT&E did not conduct a comprehensive analysis of all 21 first
article tests, reviewing only the first article tests for the M3D2S2, M4D2, and MP2S2
designs. Our review was based on a comprehensive analysis of all 21 first article tests.
Therefore, we do not consider the scope of the DOT&E review as sufficient to support a
revision to our finding and recommendation.

PEO Soldier Comments
The Principal Deputy Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) endorsed and forwarded comments from PEO Soldier. PEO Soldier agreed
that testing facility officials did not consistently follow the test plan criteria or COPD
requirements when conducting first article testing for Contract 0040. However,
PEO Soldier disagreed that the inconsistencies resulted in passing scores for three tests
that we believe actually failed (ballistic insert designs M3D2S2, MH3, and MP2S2). He
also disagreed that the M4D2 first article test data were insufficient to determine the
impact of the inconsistencies on the results of that test. PEO Soldier maintained that all
first article tests for Contract 0040 were valid and that the first article tests in question
were scored correctly and supported by sufficient, reliable, test data provided to the audit
team. He added that an experienced official from DOT&E independently reviewed the
test data and concluded that the designs successfully completed first article testing.

Regarding the inconsistent application of fair shot criteria to over velocity first shots,
PEO Soldier stated that he recognizes the critical nature of first and second shot selection
on scoring, and that commonly accepted industry standards are used to determine fair
shots. He added that the COPD was unclear on second shot scoring but that the issue has
been discussed with testing facility officials and the body armor manufacturers and that
future COPDs will clearly describe second shot scoring. PEO Soldier stated that because
an over velocity first shot stresses a plate beyond the acceptable V0 range, a plate can not
be awarded points or penalized for failing a second shot that follows an over velocity first
shot. PEO Soldier stated that for the example cited on page 10 of the draft report, the
PEO Soldier official did not “choose” to use the test results for the retested plates when
he computed the score but instead followed consistent test scoring practices by requiring
that a second plate be used to determine the score. For the February 20, 2007, first article
test, use of a second plate resulted in a passing score of 5.5 and therefore, the M3D2S2
design passed that test. PEO Soldier further stated that the M3D2S2 design passed a
subsequent November 7, 2007, first article test in which the PEO Soldier official scored
second shots occurring after over velocity first shots because, although the second shots
accumulated penalty points, the number of points did not result in a failed first article
test.

On the use of the offset correction technique for measuring BFD, PEO Soldier stated that
the COPD requires that the BFD be measured using the deepest point of penetration.


                                                15
When the aim point of the projectile (point of impact) is different than the deepest point
of penetration, PEO Soldier stated that use of the offset correction technique is a common
industry standard to measure BFD and that the audit team was provided documentation
showing use of the technique by one of the body armor manufacturers. PEO Soldier
stated that use of the technique by that body armor manufacturer demonstrates that the
use of offset correction factors is an industry standard practice. He added that contrary to
what was written in the draft report, the October 25, 2007, first article test conducted on
the M4D2 design was a valid first article test and that during a January 6, 2009, meeting,
DOT&E concurred that the design passed first article testing. PEO Soldier further stated
that the Army has incorporated a laser scanner to measure the BFD, eliminating the
requirement for the offset correction technique.

PEO Soldier also disputed our finding of inconsistencies regarding plate size
requirements. He stated that for the September 2007 first article test, a wrong size plate
was tested and a correct one was substituted in its place. PEO Soldier stated that the test
was scored consistent with the ESAPI scoring procedures and that the design passed with
5 points. He further stated that the MP2S2 design passed a subsequent first article test on
November 9, 2007, and a February 2008 test conducted by the U.S. Marine Corps.
PEO Soldier concluded that the MP2S2 is a qualified design that passed three separate
first article tests over a 6-month period. Consequently, the design has no reported quality
or performance defects, and the ballistic inserts do not need to be returned.

For the inconsistencies we identified during the scoring process, PEO Soldier
acknowledged that some deficiencies existed in documenting testing requirements and
practices. He noted that a review was instituted to ensure that improved documentation is
incorporated into current and future contracts. However, PEO Soldier stated that
common industry standards were used to score the first article tests and that the scoring
process used is consistent with body armor testing practices.

Regarding testing overall, PEO Soldier stated that, to gain a complete understanding of
the Army’s testing strategy, it is important to look at the totality of the testing, not just
one level in isolation. First article testing is only one of three levels in the Army’s
comprehensive, multitiered approach to body armor testing, which also includes lot
acceptance and surveillance testing. In addition, the Army’s testing protocols have been
structured to withstand operational threats greater than those the plates are designed to
defeat, providing an increased safety margin in those testing protocols. PEO Soldier
added that he recognized that controls needed to be improved to ensure consistent testing
and scoring processes and that, in response, many controls have been implemented.
Lastly, PEO Soldier stated that the Army continuously reviews and improves its testing
processes and procedures to ensure the best products are fielded to soldiers, whose safety
is the Army’s top priority.




                                             16
Our Response
We agree that soldier safety should be the top priority and recognize that the Army is
taking steps to improve controls over the body armor first article testing and scoring
processes. However, we disagree with the Army’s position that the first article tests for
ballistic insert designs M3D2S2, MP2S2, and M4D2 were valid and scored correctly and
that the designs successfully completed first article testing.

In his comments on the draft report, PEO Soldier stated that because an over velocity shot
stresses a plate beyond the acceptable V0 range, a plate can not be awarded points or be
penalized for failing a second shot that follows an over velocity first shot. We agree that
an over velocity shot could provide additional stress to a plate and that the stress could
affect the results of the second shot. However, we are concerned that the second shot was
disregarded only when it resulted in a complete penetration, which would have led to
more than the allowable number of penalty points. Only during the February 20, 2007,
first article test for the M3D2S2 design did the testing facility official conduct a retest
when a complete penetration occurred on a second shot that followed an over velocity
first shot. In addition, only during scoring for that February 20, 2007, test did the scoring
official disregard the initial test results and use the retest results. Had the scoring official
used the results of the initial second shot for the plate that withstood the over velocity
first shot, the M3D2S2 design would have failed first article testing. PEO Soldier did not
explain how these exceptions constitute “consistent scoring practices.”

We disagree with PEO Soldier’s contention that the offset correction technique is a
common industry standard. The documentation provided to support the Army’s
contention is the e-mail from the COTR to the testing facility, when he instructed the
testing facility to use the technique, and another e-mail in which one of the body armor
contractors explains the offset correction technique formula and how it is used. We do
not consider the two e-mails sufficient to demonstrate that the technique is a common
industry standard. As we discuss in finding B, DoD has yet to adopt standards for its V0
testing. Furthermore, PEO Soldier’s change to Contract 0040 instructing testing facility
officials to deviate from the COPD and use the offset correction technique to measure
BFD was not in accordance with Federal Acquisition Regulation 43.102.

Regarding PEO Soldier’s comments concerning plate size, our issue is not whether plates
should be scored or retested if the incorrect size plate is shot. Rather, the issue is that the
Army was inconsistent in determining which plates should be scored. Incorrect size
plates were used during 18 of the 21 first article tests conducted under Contract 0040.
Only during the September 12, 2007, first article test for the MP2S2 design did the
testing facility official conduct a retest with the correct size plate when he initially tested
the incorrect size plate. As with the treatment of second shots after over velocity first
shots, the Army made an exception for one of the first article tests by using the score for
the retested plate, allowing the design to pass. Had the Army elected to score the original
plate, the design would have failed first article testing. PEO Soldier stated that the
MP2S2 design passed two additional first article tests, one on November 9, 2007, and the
other in February 2008, and that consequently, the design has no reported quality or
performance defect, and the inserts do not need to be returned. The first article test data


                                              17
provided to us by PEO Soldier indicates that the November 9, 2007, first article test was
conducted on the MP2S1 design, not the MP2S2 design. In addition, we did not review
Marine Corps first article testing; therefore, we did not consider the results of the Marine
Corps test in our conclusion. However, we are concerned that PEO Soldier is supporting
their statement that the MP2S2 design is a qualified design based the test of a different
design and a Marine Corps test that was conducted the same month the Army stopped
purchasing the MP2S2 design.

PEO Soldier stated that DOT&E conducted an independent review of the test data for
designs M3D2S2, MP2S2, and M4D2 and concluded that the three designs successfully
completed first article testing. However, in his comments, DOT&E acknowledged that
his review was limited to the first article tests for those three designs and was based on
PEO Soldier test protocols and common industry standards. As discussed in our response
to DOT&E’s comments, DOT&E did not review all 21 first article tests, nor did he
provide us evidence of common industry standards. Lacking documentary support for his
conclusion, we maintain that these three first article tests were invalid and the designs
actually failed.

PEO Soldier also stated that we should have considered the totality of body armor testing
and not have focused on one level of that testing. While we agree that lot acceptance and
surveillance testing are important, those tests do not determine whether a plate design
meets contractual requirements. Lot acceptance testing, conducted after a design passes
first article testing, verifies that the manufacturing process is capable of producing a large
quantity of plates while still meeting requirements. Additionally, lot acceptance testing
for Contract 0040 required only 5 plates to be tested in ambient conditions against
threat D whereas first article testing included 25 plates, tested against threats A, B, C, and
D, in ambient and 7 environmental conditions. Surveillance testing is conducted on
plates when soldiers are on rest and recuperation leave in an effort to determine a service
life for the plates. Neither lot acceptance nor surveillance testing should be used as
substitutes for a robust, consistent first article testing process.

DOT&E Comments
The DOT&E agreed that significant systemic issues existed regarding body armor first
article testing; however, he disagreed with significant portions of finding A. He stated
that, at the request of senior Army leadership, DOT&E conducted an independent review
of the first article test results for designs M3D2S2, M4D2, and MP2S2. The objective of
the review was to determine whether the test facility and scoring official followed
PEO Soldier test protocols and established standards for fair shot criteria, BFD, and plate
selection.

Regarding fair shot criteria, DOT&E stated that, although the Army’s COPD does not
clearly articulate the fair hit criteria for a shot that immediately follows an over velocity
shot, he believes it is standard and common practice to declare a “no test” if a failing shot
occurs following an over velocity first shot. He added that DOT&E approved that
process during first article testing conducted under DOT&E oversight at the Army Test
and Evaluation Command during 2008. The DOT&E stated that the rationale for the


                                             18
process is that a plate subjected to an over velocity shot experiences stresses beyond what
the plate was designed to experience, regardless of whether the plate defeats the threat.
Any subsequent shot that results in a failure may be the result of a generally weakened
plate because of the first over velocity shot, and not necessarily the result solely of the
second shot. Therefore, DOT&E agrees with the actions taken by the testing facility
during the February 20, 2007, first article test for the M3D2S2 design to conduct a retest
when a second shot was awarded limited failure points after an over velocity first shot.
He also concurs that the design passed first article testing with a score of 5.5 points. The
DOT&E also noted that he supports PEO Soldier’s intent to review and correct
deficiencies in the test process concerning fair shot criteria.

Regarding the offset correction technique when measuring BFD, DOT&E stated that it is
his observation that use of the technique is a common test practice when measuring BFD
during Army testing. During DOT&E’s review of the M4D2 design first article test
conducted on October 25, 2007, he stated that in order for the plate in question to reach a
catastrophic failure, the BFD would have to be offset 6.4 millimeters. The DOT&E
concluded that even if the correction factor had not been used for the plate in question,
the design would not have failed the first article test. The DOT&E further stated that the
Army Test and Evaluation Command followed this same process during the preliminary
design model testing that was conducted under DOT&E oversight. Finally, he stated that
current and future testing overseen by DOT&E will use laser scanning technology that is
significantly more accurate and will eliminate manual measurement and application of
the offset correction technique.

Regarding the plate size requirement, DOT&E reviewed the MP2S2 first article test
conducted on September 12, 2007, and confirmed that a correctly sized substitute plate
was tested and scored. Therefore, DOT&E concluded that the testing facility officials
followed the correct procedure, that the scoring official correctly scored the first article
test, and that the design passed. He further stated that DOT&E did not review the other
17 first article tests referenced in the report, but stated that it is PEO Soldier’s process to
strictly follow plate size test requirements as stated in the first article test protocol.
Additionally, he stated that DOT&E ensured that the correctly sized plates were tested
during preliminary design model testing in 2008 and that PEO Soldier intends to conduct
all future first article tests at the Army Test and Evaluation Command to prevent
recurrence of these issues.

Our Response
While we commend the interdepartmental coordination that resulted in DOT&E’s review
of the Army’s first article testing for designs M3D2S2, M4D2, and MP2S2, we do not
consider the scope of that review sufficient to support a revision to our findings and
recommendations. We reviewed and analyzed the first article test data for all 21 first
article tests conducted for Contract 0040. That data analysis provided the basis for our
finding that inconsistencies existed in the testing and scoring processes for the 21 first
article tests and that because of those inconsistencies, we believe that 3 of the 8 designs
that passed first article testing actually failed. The DOT&E did not review the results for
all 21 first article tests.


                                              19
The DOT&E also stated that, for the fair shot determination and BFD issues, the Army
used common test practices when testing and scoring the ballistic plates. As we state in
our response to PEO Soldier’s comments on finding A, we have not been provided
adequate documentation to demonstrate that there is an industry-wide standard, and as we
state in finding B, DoD body armor testing standards have yet to be adopted. Further, we
reviewed whether first article testing criteria were in accordance with the requirements of
the COPD and the first article test plan, neither of which cite industry standards.

The DOT&E concluded that for the M4D2 design first article test it was mathematically
impossible that the first shot was 48 millimeters; therefore, the design would not have
failed had the offset technique not been used. However, because the original
measurement was not documented, we used the offset correction technique formula to
calculate the possibilities for the original BFD and determined that it was possible for the
original BFD to be 48 millimeters. For example, if the deepest point is 25.6 millimeters
from the aim point, and the recalculated BFD is 41.6 millimeters, the original BFD
measurement would be 48 millimeters.5 Although this scenario is not probable, it is
possible. Therefore, we can not state with absolute assurance that the design would have
passed had the offset correction technique not been used.

Recommendations, Client Comments, and Our
Response
We expanded Recommendation A.1. to include a request for a plan of action to
implement the recommendation within 30 days of the report. Additionally, after the draft
report was issued and we considered management comments, we added
Recommendation A.2.c. to address our concern that the COTR was able to make a
change to the contract without approval from the contracting officer.

A.1. We recommend that the Secretary of the Army direct the Program Executive
Officer Soldier to immediately identify and facilitate the return of the 4,151 sets of
M3D2S2, 12,037 sets of MP2S2, and 225 sets of M4D2 design ballistic inserts
purchased under Army contract number W91CRB-04-D-0040, and remove the
ballistic inserts from inventory. The Secretary of the Army should also provide a
plan of action within 30 days of this report that implements this recommendation.

Secretary of the Army Comments
The Secretary of the Army agreed to identify and collect the ballistic inserts to ensure
that there can be no question concerning the effectiveness of every soldier’s body armor
until the disagreement between the Army and the DoD IG has been adjudicated by the
Deputy Secretary of Defense.




5
    48-(0.25*25.6)=41.6


                                             20
Our Response
We commend the Secretary of the Army in that even though he disagreed with finding A,
he has agreed to identify and collect the ballistic inserts. We revised
Recommendation A.1. after the draft report was issued and requested that the Secretary
of the Army provide a plan of action that implements the recommendation within 30 days
of this report. Therefore, we request additional comments on this recommendation in
response to the final report.

PEO Soldier Comments
Although not required to comment on this recommendation, the Principal Deputy
Assistant Secretary of the Army (Acquisition, Logistics, and Technology) endorsed and
forwarded comments from PEO Soldier. PEO Soldier disagreed with our
recommendation, stating that, regarding the M3D2S2, MP2S2, and M4D2 designs, the
successful first article test results were valid, and a return is not required. He further
stated that on January 6, 2009, DOT&E reviewed the first article test documentation and
concluded that the three designs passed first article testing.

PEO Soldier stated that the Army conducts multiple levels of continuous testing
throughout the life cycle of the ballistic plates, including rigorous first article testing, lot
acceptance testing, and surveillance testing. The lot acceptance testing is conducted at
ambient conditions with the same test and scoring criteria as the first article tests, thereby
increasing the statistical confidence that the plates accepted are of the highest quality and
will meet the soldiers’ needs for protection. PEO Soldier stated that the M3D2S2 design
passed 15 of 17 lot acceptance tests, providing the Army high confidence that the plates
met the performance requirements. Further, PEO Soldier stated that the plates are also
undergoing surveillance testing, which requires the plates to be x-rayed in Kuwait. If
cracks are found, the plates are sent to Aberdeen Test Center, Aberdeen Proving Ground
for further testing. PEO Soldier stated that, of the 1,750 plates sent to the Aberdeen Test
Center, 533 have been live-fire tested. Testing results indicate that when tested against
the most prevalent round found in theater and on the most vulnerable part of the plate
(location of the crack), the plates have successfully stopped 180 of 180 shots
(100 percent). In addition, in testing conducted with ammunition beyond what would be
found in theater, the plates successfully stopped 212 of 278 shots (76.3 percent).

PEO Soldier stated that the Army plans to continue live-fire testing of returned plates in
an effort to determine a service life for plates. He stated the testing ensures that the Army
develops a historical body of knowledge and allows for continuous scrutiny of the plates
to ensure they meet the highest standards of plate performance throughout their service
life.

Our Response
PEO Soldier stated that the DOT&E review supports his statement that the first article
tests were valid. However, he acknowledged in his comments that DOT&E’s review was
limited to the first article tests conducted for the M3D2S2, MP2S2, and M4D2 designs
and was based on PEO Soldier test protocols and common industry standards. Our
recommendation was based on a comprehensive review and analysis of all 21 first article


                                              21
tests conducted for Contract 0040 and whether those tests were conducted in accordance
with contractual requirements. The DOT&E’s limited scope of review, his acceptance of
PEO Soldier’s use of common test practices during testing (instead of COPD
requirements), and the lack of evidence supporting industry standards do not provide a
sufficient basis to alter our conclusions.

PEO Soldier also stated that the Army conducts multiple levels of testing throughout the
life cycle of ballistic plates to include first article, lot acceptance, and surveillance testing.
We agree that multiple levels of testing are necessary, but do not consider that the results
of lot acceptance or surveillance testing compensate for an invalid first article test. The
Army conducts first article testing to authorize production of a specific design. First
article testing consists of testing 25 plates under ambient and 7 environmental conditions,
using 4 different threats. Lot acceptance testing consists of testing three to eight plates,
depending on the lot size, under ambient conditions and using only one threat. For
Contract 0040, the testing facility officials tested only five plates during lot acceptance
testing. PEO Soldier specifically stated that the M3D2S2 design passed 15 of 17 lot
acceptance tests, providing the Army high confidence that the plates met performance
requirements. However, that argument does not hold true for the M4D2 lot acceptance
testing because that design only passed one of four lot acceptance tests.

The Army also provided results concerning surveillance testing conducted in Kuwait and
at the Aberdeen Test Center. Although the test results indicate that 100 percent of the
plates with identified cracks withstood the most prevalent round in theater, the results can
not be extrapolated beyond the plates actually tested because they are not representative
of the entire population. The Army must use proper statistical methodology to draw
general conclusions concerning the state of the ballistic plates.

DOT&E Comments
Although not required to comment on this recommendation, DOT&E stated that his
office reviewed the M3D2S2, MP2S2, and M4D2 design first article tests and concluded
that all three were successful. However, DOT&E stated that he deferred to the Secretary
of the Army on any decision involving the return of U.S. Army personal protective
equipment.

A.2. We recommend that the Program Executive Officer Soldier:

        a. Require that a Government representative be present at all first article
           tests to verify that the testing facility officials follow the test plan and
           contract requirements.

        b. Initiate a review and approval process to verify that the first article test
           results are scored in accordance with the first article test plan and
           contract requirements.




                                               22
       c. (New) Implement controls to ensure that future changes to the contract
          are executed by the contracting officer and in accordance with the
          Federal Acquisition Regulation.

PEO Soldier Comments
PEO Soldier agreed, stating that since June 2008 there has been a requirement for
Government representation during all first article and lot acceptance testing. He also
stated that since October 2008, a three-tier scoring methodology was implemented to
ensure scoring accuracy. Each test is independently scored by two people, and the results
are provided to the PEO Soldier Chief Scientist for adjudication and final approval.

Our Response
PEO Soldier’s comments to Recommendations A.2.a. and A.2.b. were fully responsive,
and no additional comments are required on those recommendations. Additionally, after
the draft report was issued and we considered management comments, we added
Recommendation A.2.c. to address our concern that the COTR was able to make a
change to the contract without approval from the contracting officer.

DOT&E Comments
Although not required to comment on this recommendation, DOT&E supports PEO
Soldier’s intent to correct deficiencies in the first article testing process. The DOT&E
also supports PEO Soldier’s intent to sponsor testing at Government facilities with
independent Government oversight when possible and, when not possible, to use
independent Government personnel to oversee testing. He stated that conducting first
article testing at a Government facility, under Government oversight, and with adequate
test processes significantly reduces the risk that the issues discussed in finding A will
recur.




                                            23
Finding B. First Article Testing Criteria for
the Army and USSOCOM
The Army and USSOCOM independently developed first article testing criteria for body
armor ballistic inserts. Even when testing to the same ballistic threats, the testing criteria
differed significantly in the number of plates tested (sample size), the shot pattern, the
environmental conditions, the type of tests, and pass/fail guidelines. As a result, DoD
does not have assurance that its body armor provides a standard level of protection. To
standardize the level of protection, DoD needs to ensure that the Military Services and
USSOCOM work with DOT&E to develop a test operation procedure for body armor
ballistic inserts. To verify the rigor of the testing, DOT&E should use quantitative
methods to develop a test sample size for testing that limits the number of possible
failures. The test operation procedure should include, at a minimum, requirements for
sample size, shot pattern, types of tests, and pass/fail guidelines.

First Article Testing Criteria
The Army and USSOCOM used different approaches when developing first article
testing criteria for body armor ballistic inserts. In 2002, the Army adopted the
U.S. Marine Corps SAPI COPD as a baseline to develop first article testing criteria for
the Army version of the SAPI COPD. The Marine Corps COPD was based on research
conducted at the U.S. Army Natick Soldier Research, Development, and Engineering
Center from 1998 through 2000. The initial Army SAPI testing criteria were used to
develop the ESAPI testing criteria in 2005 when the Army discontinued the use of the
SAPI and began purchasing the ESAPI.

In 1998, USSOCOM adopted testing criteria proposed by one of its body armor
contractors. According to the contractor, the criteria were developed based on ballistic
behavior, sampling methodology, and confidence levels used to draw inferences from the
sample to the population of ballistic inserts being tested. The contractor also stated that
the criteria were developed following discussions with ballistics experts.

The different approaches in the development of Army and USSOCOM first article test
criteria resulted in significant differences, even when testing to the same ballistic threats.
Those results include differences in the number of plates tested (sample size), the type of
tests, the environmental conditions, the shot pattern, and the pass/fail guidelines. To
make a valid comparison between the different test criteria, we compared the test criteria
used for the Army ESAPI and USSOCOM Generation III6 plates because those plates are
required to stop the same ballistic threats (A, B, C, and D).

Number of Plates Tested
The Army and USSOCOM test a different number of plates for each ballistic threat and
environmental condition. For the ESAPI, the Army requires the contractor to submit

6
 The Generation III plates are referred to as “baseline configuration plates” in the USSOCOM contract.
Once the baseline configuration plates pass testing, they will officially become Generation III plates.


                                                    25
25 plates for first article ballistic testing. For V0 testing, the COPD requires that one
plate be tested against threats A, B, and C in ambient conditions and three plates against
threat D in ambient conditions. In addition, the COPD requires that one plate be tested
under each of the seven environmental conditions tested by the Army. The remaining
12 plates are used for V50 testing.

USSOCOM requires that the contractor submit a minimum of 146 plates for Generation
III first article testing. Based on initial results, the number of plates tested can increase to
480 (see Table 1). The test plan requires that 16 plates be tested against threats A, B, C,
and D in ambient conditions. The test plan also requires that six plates be tested under
each of the eight environmental conditions. During ambient testing, if a complete
penetration or BFD greater than 44 millimeters occurs during the second shot with threats
A and B or the first shot with threat D, the plan requires the testing facility to test an
additional 13 plates in ambient conditions. If the same scenario occurs during
environmental testing, the plan requires the testing facility to test an additional 23 plates
for the specific condition. In addition to the ambient and environmental testing,
USSOCOM requires that 28 plates be tested for shatter gap.7 The remaining six plates
are used for V50 testing.

                            Table 1. Number of Plates Tested
                                                Generation III                    Generation III
    Condition           Threat      ESAPI            (min)                           (max)
    Ambient               A           1                16                              29
    Ambient               B           1                16                              29
    Ambient               C           1                16                              16
    Ambient               D           3                16                              29
    Environmental(s)      D           7                48                             232
    Shatter Gap           D            0               28                             116
    V50                   D           12                6                              29
    Total                             25              146                             480

According to Army officials, one plate was required for each condition. Because the
Army did not test two of the environmental conditions listed in the first article test plan,
the two extra plates were tested under ambient conditions against threat D. USSOCOM
determined the number of plates required for ballistic testing based on the number of
plates necessary to meet its required confidence and probability levels.

Shot Pattern
The Army and USSOCOM use different shot patterns when conducting first article
testing (see Figure 5). The Army COPD for ESAPI requires the testing facility official to
shoot three shots on each plate against threats A, B, C, and D. The first shot must be 0.75
to 1.25 inches from the edge of the plate, but the COPD does not specify whether that

7
 Shatter gap occurs when a bullet penetrates body armor at a lower velocity than the body armor was
designed to defeat. The Army does not test against shatter gap.


                                                   26
shot should be on the left or right edge of the plate. PEO Soldier officials, contractors,
and testing facility officials stated that the first shot is always on the left side of the plate,
and for the ballistic testing that we observed, we noted no instances in which the right
side of the plate was shot. According to the COPD, the second shot is required to be at
the weakest point of the plate and within 6 inches of the first shot. PEO Soldier officials
consider the weakest point to be the plate’s apex,8 and therefore require the testing
facility to fire all second shots at that point. The third shot is required to be 6 inches from
the second shot at a 30 degree angle and is for Government reference only against threat
D. Therefore, the data from the third shot against threat D are not used when scoring the
first article test.




       Figure 5. Army and USSOCOM Shot Patterns

The USSOCOM first article test plan requires that the testing facility official shoot each
plate two times against threats A, B, C, and D. The first shot is required to be 0.75 to
1.25 inches from the left edge of the plate (9 o’clock). The subsequent first shots are
fired in a clockwise pattern at 12 o’clock, 3 o’clock, and 6 o’clock, repeating the shot
pattern until the test is complete. The second shot is required to be 4 inches, plus or
minus 0.5 inch, from the first shot and toward the center of the plate for each shot.


8
    In Figure 5, the apex is denoted by the number 2 in the Army shot pattern diagram.


                                                      27
USSOCOM officials stated that this shot pattern is used to verify uniform protection
across the plate.

Environmental Conditions
The Army and USSOCOM also differ in the types of environmental conditions tested and
the conditioning procedures for each of those environmental conditions (see Table 2).
The Army tests under seven environmental conditions with 2- or 6-hour conditioning
periods, and USSOCOM tests under eight environmental conditions with 8- or 24-hour
conditioning periods.

During temperature conditioning, the Army subjects plates to both high and low
temperatures for a minimum of 6 hours each before ballistic testing. USSOCOM subjects
the plates to the temperature extremes for 24 hours each before testing. The Army also
requires temperature shock conditioning, which requires the plate to be at 120 degrees for
2 hours and then at -25 degrees for 2 hours. USSOCOM does not require a temperature
shock test.

During liquid conditioning, the Army subjects plates to oil, diesel, and saltwater;
USSOCOM subjects its plates to oil, gasoline, weapon lubricant, chlorine water, and sea
water. The Army and USSOCOM subject the plates to the various liquids for different
periods using different techniques. For example, during oil conditioning, the Army
places its plate in half an inch of oil for 2 hours; USSOCOM completely submerges its
plates in the oil for 8 hours. Because the plates can be manufactured with material that
can absorb and retain a significant amount of liquid, USSOCOM also weighs the plates
before and after liquid conditioning to determine whether they absorbed any of the liquid.
If there is a difference in weight greater than .25 pounds, the design automatically fails
the first article test. The Army does not have a requirement to weigh the plates after
liquid conditioning.

For the durability test, the Army and USSOCOM subject their plates to the same type of
conditioning. The plates are dropped twice and then x-rayed. If the x-ray shows a crack
in the plate, ballistic testing is performed directly on the crack; if no cracks are present,
the testing is conducted using the regular shot pattern.

          Table 2. Environmental Conditions for ESAPI and Generation III
Environmental Condition        Army Requirement        USSOCOM Requirement
Low Temperature                      6 hours                   24 hours
High Temperature                     6 hours                   24 hours
Oil                                  2 hours                    8 hours
Diesel/Gasoline                      2 hours                    8 hours
Weapon lubricant                       N/A                      8 hours
Chlorine Water                         N/A                     24 hours
Sea Water                             N/A                      24 hours
Saltwater                            2 hours                     N/A
Temperature Shock             See description in text             N/A
Durability                        Dropped twice             Dropped twice


                                             28
Shatter Gap
USSOCOM tests against shatter gap, and the Army does not. Shatter gap occurs when a
bullet hits hard body armor at a velocity significantly less than the armor is designed to
defeat. Instead of the bullet “shattering” upon impact, which it would do at a higher
velocity, the bullet stays intact. In this state, it could penetrate the hard and soft armor,
resulting in a partial or complete penetration. To test shatter gap, USSOCOM tests a
minimum of 28 plates against threat D at 4 different velocity ranges. The plates must
meet the requirements in the first article test plan.

Pass/Fail Guidelines
The Army and USSOCOM use different criteria when determining whether the
contractor’s ballistic inserts pass or fail first article testing. For the Army, the contractor
fails a first article test if the test results in a catastrophic failure or receives more than six
penalty points, as discussed in finding A. For USSOCOM, the contractor fails a first
article test if the test does not meet the probability and confidence levels listed in the first
article test plan (see Table 3).

As stated in finding A of this report, PEO Soldier officials did not follow the BFD and
complete penetration requirements contained in the COPD. PEO Soldier officials
developed additional pass/fail guidelines that were based on the concept of catastrophic
and limited failures and implemented a point system that was assigned to the limited
failures against threat D,9 as described above.

The COPD states that the BFD can not exceed 43 millimeters, and no complete
penetrations can occur on the first, second, or third shot against threats A, B, and C, or on
the first or second shot against threat D. However, PEO Soldier officials defined a
catastrophic failure as a BFD of 48 millimeters or greater on the first shot or a complete
penetration of the hard and soft armor on the first shot. Although PEO Soldier officials
did not allow any complete penetrations to occur on the first shot, they did allow the BFD
to measure 47 millimeters. PEO Soldier officials stated that they relaxed the COPD
requirement of 43 millimeters because industry could not meet that requirement.
However, PEO Soldier officials provided 510 BFD data points from ballistic testing
results, and only 10 of those 510 data points exceeded the 43 millimeter BFD
requirement. We believe that the small number of outliers does not justify allowing the
BFD measurement to exceed 43 millimeters.

USSOCOM pass/fail guidelines are based on probability and confidence levels. For
example, when testing plates against threat D under ambient conditions, USSOCOM
requires the test to have a 90 percent probability with an 80 percent confidence level that
the plate will stop the first shot. This would occur if no more than 0 of 16 or 1 of
29 plates results in a failure. A failure occurs if the BFD measurement is greater than
44 millimeters or a complete penetration of the hard and soft armor occurs on the first or
second shot. USSOCOM also requires the test to have a 60 percent probability with an
80 percent confidence level that the plate will stop the second shot. This would occur if

9
    As of June 14, 2007, PEO Soldier also assigned limited failure points to threats A, B, and C.


                                                       29
no more than 0 of 6, 1 of 7, 2 of 10, through 8 of 29 plates result in a failure. If the test
meets the probability and confidence levels for shots one and two, the contractor passes
the first article test. The probability and confidence levels for the additional conditions
are listed in Table 3 and discussed below the table.

              Table 3. USSOCOM Probability and Confidence Levels
                                First Shot First Shot Second Shot Second Shot
    Conditions       Threat Probability Confidence Probability    Confidence
                                (Percent)  (Percent)   (Percent)   (Percent)
 Ambient                A           100       100          90          80
 Ambient                B           100       100          90          80
 Ambient                C           100       100         100         100
 Ambient                D           90         80          60          80
 Environmental(s)      D            90         80         60*         80*
 Shatter Gap            D           100       100          60          80
*Requirement only if the V50 test fails.

USSOCOM requires the plate to stop 100 percent of the first shots against threats A, B,
and C; 100 percent of the second shots against threat C; and to have a 90 percent
probability with an 80 percent confidence level that the plate will stop the second shot
against threats A and B. For the environmental tests against threat D, USSOCOM
requires the tests to meet the 90 percent probability with an 80 percent confidence level
requirement on the first shot and the second shot to pass a V50 test. However, if the plate
fails the V50 test, then a separate environmental test is conducted under the same
condition, using the same probability and confidence level requirements as threat D at
normal conditions. For the shatter gap test against threat D, USSOCOM requires the test
to stop 100 percent of the first shots and meet the 60 percent probability with an
80 percent confidence level requirement on the second shot. If one of the tests discussed
above does not meet the required probability and confidence levels, the first article test
will fail.

Level of Protection
Because the Army and USSOCOM first article testing criteria differ so significantly,
DoD does not have assurance that its body armor provides a standard level of protection.
We expected to encounter differences in first article testing based on mission needs;
however, the justification for the differences (number of plates tested and pass/fail
guidelines) did not specifically relate to the Army and USSOCOM missions.

The differences between the Army and USSOCOM first article testing was difficult to
quantify because of the differences in the number of plates tested, the environmental
conditions tested under, and the scoring of the first and second shots. However, we were
able to calculate and compare the Army and USSOCOM data for the first shot against
threat D under ambient conditions using USSOCOM Generation III and Army ESAPI.
The simple comparison showed that the USSOCOM sampling plan provided a 27 percent



                                              30
better chance that defective plates are detected during first article testing (see Appendix B
for the calculations).

The Army requires the contractor to submit 25 plates for first article testing and tests 3 of
those plates against threat D in ambient conditions. Applying a statistical distribution to
the population of 25 plates and assuming 3 plates are each shot once and with zero
complete penetrations, we calculated that there is a 20 percent chance that at least
36 percent of the plates will not be detected as failures. For the Generation III criteria,
USSOCOM requires the contractor to submit a minimum of 146 plates for first article
testing and then tests 16 of those plates against threat D in normal conditions. From a
population of 146 plates, assuming 16 plates are each shot once with zero complete
penetrations, we calculated that there is a 20 percent chance that at least 9 percent of the
plates will not be detected as failures.

Although the USSOCOM and Army require two shots on each plate, these calculations
are based only on a first shot comparison. Both USSOCOM and Army plates are two-
strike plates and the qualification of their plates requires two-strike qualifications.
However, we attribute the 27 percent difference of plates that will not be detected as
failures primarily to the total number of plates tested. This significant difference in
sample sizes does not verify that USSOCOM and Army body armor provides a standard
level of protection.

Standard First Article Testing Criteria
DoD has not instituted standard criteria for body armor first article testing. Although the
DoD issued Military Standard 662F, “V50 Ballistic Test For Armor,” December 18, 1997,
and Military Standard 3027, “DoD Test Method Standard for Performance Requirements
and Testing of Body Armor,” September 30, 2008, they are provided only for body armor
testing guidance, and military personnel are not required to follow them.

DoD issued Military Standard 662F to provide V50 acceptance criteria for body armor.
Specifically, the standard provides guidance for calculating the V50 and the ballistic limit
of body armor, establishes the V50 testing protocol, and provides acceptance and rejection
criteria. The Army and USSOCOM follow the standard for V50 testing; however, the
standard discusses only V50 testing procedures, and currently the majority of body armor
ballistic testing is V0 testing.

DoD issued Military Standard 3027 to provide performance requirements and test
protocols for developing or qualifying body armor to meet the ballistic threat,
environmental conditions, and durability requirements. Army and USSOCOM personnel
provided input during the creation of the standard; however, PEO Soldier officials stated
that they do not follow the standard because it is too restrictive, and USSOCOM officials
are not required to follow the standard.

DoD 4120.24-M, “Defense Standardization Program (DSP),” March 2000, establishes
policies and procedures to achieve standardization throughout the Department. This
guidance states that standardization improves military operational readiness and reduces


                                             31
ownership costs and cycle time. Standardization in the body armor program will improve
operational readiness by reducing the variety of body armor items in the supply system.
Acquisition cycle time would also be reduced by requiring the Services to follow
standard body armor requirements. If DoD develops and requires that the Services
follow a standard test protocol and standard acceptance criteria for body armor testing, all
Service members will receive the same level of body armor protection.

Although we acknowledge the diverse mission requirements across the Services and the
combatant commands, the DoD should support the development and use of minimum test
protocol and acceptance standards for body armor. During first article testing, body
armor products should be tested against all anticipated battlefield threats and accepted
under the same criteria. In addition, body armor testing should provide a certain level of
confidence that the manufacturing process is capable of producing an armor product that
will meet the established requirements. Standardization of body armor testing and
acceptance will ensure that Service members receive body armor that has been rigorously
tested and will provide uniform protection in the battlefield.

To standardize the level of protection throughout DoD, DoD needs to verify that the
Services and USSOCOM work with DOT&E to develop the test operations procedure for
body armor ballistic inserts. To verify the rigor of the testing, DOT&E should use
quantitative methods to develop a sample size for testing that limits the number of
possible failures. In addition, the test operating procedure should include, at a minimum,
requirements for sample size, shot pattern, types of testing, and acceptance criteria to
verify the rigor of testing.

Client Actions
The “National Defense Authorization Act for FY 2009,” Subtitle E, Section 251, gives
DOT&E the authority to oversee body armor testing. Specifically, the National Defense
Authorization Act states that the Secretary of Defense can authorize DOT&E to perform
statutorily mandated monitoring and reporting on defense systems. This gives DOT&E
authority to oversee systems that require survivability testing, which include personal
protective equipment.

The DOT&E is conducting a comprehensive technical assessment of Army body armor
systems in response to a congressional request. A DOT&E official stated that because
there is no standard for body armor ballistic testing, his office developed a test plan for
hard body armor that was used during the testing of Army ballistic inserts in
December 2008. The official stated that he will use the data generated from the
December 2008 tests to develop requirements for body armor ballistic testing. The
DOT&E will coordinate with the Army Test and Evaluation Command to document the
requirements in a test operations procedure for testing hard armor and plans to issue the
procedure by the end of FY 2009.




                                             32
Client Comments on the Finding and Our Response
Army Comments
The Principal Deputy Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) endorsed and forwarded comments from PEO Soldier. PEO Soldier agreed
that the Army and USSOCOM independently developed first article test criteria for body
armor ballistic inserts and said that the test criteria were based on different operational
requirements. He stated that the Army will execute its Phase II ballistic testing in
coordination with DOT&E and will support the efforts to develop standardized body
armor testing procedures and to ensure adequate oversight of those procedures.
PEO Soldier stated that the Army will continue to work with DOT&E, the U.S. Army
Test and Evaluation Command, USSOCOM, and all Services to improve body armor test
procedures.

Regarding the Army’s first article testing, PEO Soldier stated that the Army has a
thorough and proven testing methodology as substantiated in the GAO report, GAO-07-
662R, “Review of Body Armor,” April 26, 2007. He also stated the Army has complied
with Military Standard 3027 since it was issued on September 30, 2008.

Our Response
We commend the Army’s willingness to work with and support DOT&E in the effort to
standardize body armor ballistic testing throughout DoD. We believe that standardization
will assist the product developers, the testing facilities, and the body armor manufacturers
in their efforts to provide the greatest protection to the warfighter.

During our audit, we reviewed a GAO report, GAO-07-662R. Although the report states
that “DoD has a standard methodology for ballistic testing of the hard body armor
plates,” the standard methodology that GAO was referencing was for V50 testing, not
V0 testing. As we stated on page 5 of this report, we limited our review to V0 testing
because the V50 test results are not always used to determine whether body armor samples
pass or fail first article testing.

USSOCOM Comments
Although not required to comment, the Program Executive Officer for Special Operations
Forces Warrior Systems suggested editorial changes to the report. We made changes
where appropriate. For the specific suggestions and the changes we deemed appropriate,
please see the full text of USSOCOM comments in the Client Comments section.




                                            33
Recommendations, Client Comments, and Our
Response
B. We recommend that the Director, Operational Test and Evaluation develop a
test operations procedure for body armor ballistic inserts. During the development
of the test operations procedure, the Director, Operational Test and Evaluation
should:

       1. Involve the Services and USSOCOM to verify the test operation
       procedure is implemented DoD-wide.

       2. Include, at a minimum, requirements for sample size, shot pattern, types
       of testing, and acceptance criteria to verify the rigor of testing. Specifically,
       the Director should use quantitative methods to develop a sample size for
       testing that limits the number of possible failures.

DOT&E Comments
The DOT&E agreed, stating that DOT&E continues to oversee Army body armor testing
and analysis according to congressional direction. Subject matter experts from DOT&E,
the Army Test and Evaluation Command, PEO Soldier, and the Army Research
Laboratory are working together to develop test protocols that address sample size, plate
size, and confidence levels. He stated that the Army Test and Evaluation Command will
use those test protocols during upcoming tests, and the test results will shape a future test
operations procedure that DOT&E will promulgate across the Department. He further
stated that DOT&E’s goal is to develop a first article test protocol that requires a
90 percent lower confidence limit on a reliability of 90 percent that the material under
test passes the requirement. Lastly, DOT&E stated that the expanded testing, coupled
with a comprehensive review of current practices, will address all of the systemic issues
identified in this report and will result in standardized test protocols for use across DoD.

Our Response
The DOT&E’s comments were fully responsive, and no additional comments are
required.




                                             34
Appendix A. Scope and Methodology
We conducted this audit from August 2008 through January 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Although an announced objective, we did not review first article testing criteria for the
other contracts reviewed as part of DoD IG Report No. D-2008-067 “DoD Procurement
Policy for Body Armor,” March 31, 2008. That objective will be addressed in DoD IG
Project No. D2008-D000CD-0256.000 “Research on DoD Body Armor Contracts.” In
addition, we did not review the safety of the ballistic inserts; therefore, we did not
determine whether or not the inserts provide the protection intended.

To accomplish the objectives, we obtained, reviewed, and analyzed the National Defense
Authorization Act for FY 2009, military standards; DoD instructions and manuals;
Defense Contract Management Agency product inspection reports and corrective action
requests; and Army and USSOCOM contracts, first article test plans, scoring criteria, and
first article test results. We also observed ballistic testing at H.P. White Laboratory Inc.,
and toured three contractor sites. Additionally, we interviewed officials from DOT&E,
the USSOCOM Special Operations Forces Warrior Systems, U.S. Army Natick Soldier
Center, PEO Soldier, the Air Force Research Laboratory, H.P. White Laboratory Inc.,
and three body armor contractors.

We coordinated with the Government Accountability Office, Army Audit Agency, and
DoD IG Audit Acquisition and Contract Management Directorate personnel who were
conducting a concurrent review of body armor issues.

Use of Computer-Processed Data
To perform this audit, we used computer-processed data to answer our objectives. We
relied on 21 first article test reports and a master lot report. We received the first article
test reports from Army officials, a Government contractor, and from H.P. White
Laboratory Inc. We compared multiple computer generated first article test reports and
we did not find significant discrepancies between those reports. We also used the master
lot report provided by Army officials to determine the total cost and amount of ESAPI
produced for Contract 0040. We reviewed each of the 21 first article test reports with the
Contractor and independently compared each individual first article test to the master lot
report. After our extensive review, we believe the computer-processed data was
adequate.




                                             35
Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DoD IG, and
the Army have issued four reports discussing body armor. Unrestricted GAO reports can
be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-05-275, “Defense Logistics: Actions Needed to Improve the
Availability of Critical Items during Current and Future Operations,” April 8, 2005

DoD IG
DoD IG Report No. D-2008-067, “DoD Procurement Policy for Body Armor,” March 31,
2008

DoD IG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,” June 27,
2007

Army
Army Audit Agency Report No. A-2004-0202-AMA, “Interceptor Body Armor,”
March 17, 2004




                                           36
Appendix B. Use of Technical Assistance
The Quantitative Methods Directorate (QMD) reviewed Army and USSOCOM contract
and first article test plans, scoring criteria, and test results. QMD applied appropriate
statistical methods to analyze the sampling designs based on the number of plates tested
against threat D with the first shot. The main focus was the sample size requirements
used in first article testing.

The objective was to quantify the statistical difference between the Army and
USSOCOM first article test plans for body armor plates with respect to sample size. The
differences between the Army and USSOCOM first article testing was difficult to
quantify because of the differences in the number of plates tested, the environmental
conditions tested under, and the scoring of the first and second shots. However, QMD
analysts were able to compare the Army and USSOCOM data for the first shot against
threat D and under ambient conditions using Army ESAPI and USSOCOM Generation
III plates. The QMD analysts reviewed relevant documentation provided by the audit
team. In addition, the analysts interviewed officials from PEO Soldier, the U.S. Army
Natick Soldier Center, and three body armor contractors.

The QMD theoretical analysis is based on a first shot comparison and use of a
hypergeometric distribution. The hypergeometric distribution is widely used in quality
control studies. It describes an experiment where elements are picked at random without
replacement and the probability of success is not constant. The QMD mathematically
calculated the lower confidence bound that the Army and USSOCOM first article test
could expect to achieve with respect to the first shot. The analysts replicated the analysis
performed in 199810 by a ballistic expert to validate our statistical model.

The QMD used R statistical software to calculate the lower confidence bound of partial
penetration. The lower confidence bound is found by inverting the p-value using the
method described by Buonaccorsi, J. (1987).11




10
  November 12, 1998, letter to Ms. Valerie M. Romanchek from John P. Byrd referencing
contract USZA22-98-D-0007QMD, citing Dr. Mark Adams, Ballistics Expert, Jet Propulsion Lab, National
Aeronautics and Space Administration.
11
  “A Note on Confidence Intervals for Proportions in Finite Populations,” The American Statistician, 41,
215 - 218.


                                                   37
Information from the first article test was used as arguments in the lower confidence
bound function lbhyper(N, n, y, cl). The QMD analysts calculated the number of partial
penetrations at the lower bound assuming zero complete penetrations on the first shot and
then calculated the lower confidence bound of partial penetration by dividing the number
of partial penetrations at the lower bound by population size.

lbhyper(N, n, y, cl)
N = population size
n = sample size
y = number of partial penetration
cl = confidence level

USSOCOM: Threat D:
lbhyper(146, 16, 16, .80)
N = 146
n = 16
y = 16 (complete penetration is zero)
lcb = .91 or 91 percent

From a population of 146 plates, shooting 16 plates with each plate shot once with zero
complete penetrations and 16 partial penetrations, the lower confidence bound of partial
penetration is .91 or 91 percent at 80 percent confidence; conversely there is a 20 percent
chance there will be at least 9 percent failures.

Army: Threat D:
lbhyper (25, 3, 3, .80)
N = 25, (13 shots for testing, 12 for reference, 10 for contractor and Army)
n=3
y = 3 (complete penetration is zero)
lcb = .64 or 64 percent

From a population of 25 plates, shooting 3 plates with each plate shot once with zero
complete penetrations and 3 partial penetrations, the lower confidence bound of partial
penetration is .64 or 64 percent at 80 percent confidence; conversely there is a 20 percent
chance there will be at least 36 percent failures.

The QMD analysts additionally verified our BFD calculations using the offset correction
technique discussed on page 20 of this report.




                                            38
Appendix C. Analysis of First Article Test
Results for Contract 0040
The following summarizes the inconsistencies identified during our analysis of the
21 first article tests conducted for Contract 0040.

The PEO Soldier scoring official determined that the contractor passed the following
eight first article tests:

Test Date: 6/21/05
Number of Points: 5
Auditor Note: The testing facility official used the wrong size plate three times during
the first article test. Although the wrong size plates were used, the testing facility official
did not conduct retests with the correct size plates.

Test Date: 2/08/07
Number of Points: 2.5
Auditor Note: The testing facility official used the wrong size plate three times during
the first article test. Although the wrong size plates were used, the testing facility official
did not conduct a retest with the correct size plate.

Test Date: 2/20/07
Number of Points: 5.5
Auditor Note: The testing facility official used the wrong size plate four times during
the first article test. Although the wrong size plates were used, the testing facility official
did not conduct retests with the correct size plates.

In addition to testing the wrong size plates, the testing facility official did not follow the
fair shot requirement in the COPD during the hot and saltwater conditions. The velocity
for the first shots during those conditions was too high, but there was not a complete
penetration or high BFD and according to the COPD, the shots were considered fair. The
velocity for the second shots met the requirement in the COPD, but both resulted in a
complete penetration; therefore, the plates conditioned in hot temperature and saltwater
should have received 1.5 points each. However, a retest was conducted on March 2,
2007, for both conditions. During the hot condition retest, the same scenario occurred,
the plate scored 1.5 points, but the official did not conduct a retest. During the saltwater
condition retest, the velocity for the first and second shot met the COPD requirement and
the plate scored no points. If the PEO Soldier scoring official had followed the fair shot
requirement in the COPD, the contractor would have failed with seven points.




                                              39
Test Date: 7/10/07
Number of Points: 4.5
Auditor Note: The testing facility official used the wrong size plate three times during
the first article test and the official did not conduct retests with the correct size plates.

During the first article test, the testing facility official used the offset correction technique
to decrease the BFD measurement on three plates. Had the PEO Soldier scoring official
used the original BFD measurement, the contractor would have failed the test with a
catastrophic failure in addition to accumulating more than 6 points.

Test Date: 9/12/07
Number of Points: 4
Auditor Note: The testing facility official used the wrong size plate four times during
the first article test. The official conducted a retest for the incorrect size plate that scored
2.5 points and did not retest the other 3 plates. Had the PEO Soldier scoring official used
the original plate, the contractor would have failed the test with 6.5 points. This was the
only time the testing facility official conducted a retest with the correct size plate.

Test Date: 9/18/07
Number of Points: 4.5
Auditor Note: The testing facility official used the wrong size plate once during the first
article test and the official did not conduct a retest with the correct size plate.

Test Date: 10/25/07
Number of Points: 4
Auditor Note: The testing facility official used the wrong size plate four times during
the first article test and the official did not conduct retests with the correct size plates.
Additionally, the offset correction technique was used to decrease the BFD on two plates.
We are unable to determine whether the contractor would have failed the test if the offset
correction technique was not used because the original BFD measurement for one of the
plates was not recorded.

Test Date: 11/7/07
Number of Points: 5
Auditor Note: The testing facility official used the wrong size plate once during the first
article test and the official did not conduct a retest with the correct size plate.
Additionally, the testing facility official did not follow the fair shot requirement in the
COPD for one plate that had a high velocity on the second shot and resulted in a
complete penetration. According to fair impact criteria in the COPD, the shot would not
be considered a fair hit. However, the testing facility official did not retest this plate.




                                               40
The PEO Soldier scoring official determined that the contractor failed the following 13
first article tests:

Test Date: 4/07/05
Auditor Note: The contractor failed the test because there was a complete penetration
on the first shot during the durability test. The testing facility official used the wrong size
plate eight times during the first article test. Although the wrong size plates were used,
the testing facility official did not conduct retests with the correct size plates.

Test Date: 4/12/05
Auditor Note: The contractor failed the test because there was a complete penetration
on the first shot during the durability test. The testing facility official used the wrong size
plate eight times during the first article test. Although the wrong size plates were used,
the testing facility official did not conduct retests with the correct size plates.

Test Date: 6/1/05
Auditor Note: The contractor failed the test because there was a first shot BFD of 50
millimeters on the plate tested in ambient condition against threat D. The testing facility
official used the wrong size plate once during the first article test and the official did not
conduct a retest with the correct size plate.

Test Date: 6/16/05
Auditor Note: The contractor failed the test because there was a complete penetration
on the first shot during the ambient condition test against threat D. The testing facility
official used the wrong size plate three times during the first article test. Although the
wrong size plates were used, the testing facility official did not conduct retests with the
correct size plates.

Test Date: 6/16/05
Auditor Note: The contractor failed the test because there was a complete penetration
on the first shot during the durability test. The testing facility official used the wrong size
plates two times during the first article test. Although the wrong size plates were used,
the testing facility official did not conduct retests with the correct size plates.

Test Date: 6/21/05
Number of Points: 8
Auditor Note: The contractor failed the test because it received eight points. The testing
facility official used the wrong size plate three times during the first article test and the
official did not conduct a retest with the correct size plates.

Test Date: 12/29/06
Auditor Note: The contractor failed the test because there was a complete penetration
on the first shot during the durability test. The first article test was not complete and we
cannot determine if the testing facility official used incorrect plates.




                                              41
Test Date: 2/7/07
Auditor Note: The contractor failed the test because there was a complete penetration
on the first shot during the durability test. This was the only test conducted and the
testing facility official used the correct size plate.

Test Date: 5/31/07
Number of Points: 8.5
Auditor Note: The contractor failed the test because it received 8.5 points. The testing
facility official used the wrong size plate three times during the first article test.
Although the wrong size plates were used, the testing facility official did not conduct
retests with the correct size plates.

Test Date: 6/27/07
Auditor Note: The contractor failed the test because there was a first shot BFD of 50
millimeters on the plate tested in the ambient condition against threat D. The testing
facility official only used two plates during this test and both plates were the incorrect
size. The official used the wrong size plate against threat D in ambient conditions and a
catastrophic failure occurred on the first shot.

Test Date: 8/16/07
Auditor Note: The contractor failed the test because there was a complete penetration
on the first shot during the durability test. The testing facility official only used one plate
during the test and it was the correct size.

Test Date: 8/23/07
Number of Points: 6.5
Auditor Note: The contractor failed the test because it received 6.5 points. The testing
facility official used the wrong size plate two times during the first article test. Although
the wrong size plates were used, the testing facility official did not conduct retests with
the correct size plates.

Test Date: 8/27/07
Auditor Note: The contractor failed the test because there was a complete penetration
on the first shot during the durability test. The testing facility official only tested one
plate, and it was the correct size.




                                              42
Department of the Army Comments




                  Click to add JPEG file




                                 43
Click to add JPEG file




               44
Click to add JPEG file




               45
Click to add JPEG file




               46
Click to add JPEG file




               47
Click to add JPEG file




               48
Click to add JPEG file




               49
Click to add JPEG file




               50
Click to add JPEG file




               51
Director, Operational Test and Evaluation




                    Click to add JPEG file




                                   52
Click to add JPEG file




               53
Click to add JPEG file




               54
Click to add JPEG file




               55
U.S. Special Operations Command Comments

                                             Final Report
                                              Reference




                                           Revised

                 Click to add JPEG file




                                           Revised




                                56
                           Final Report
                            Reference




                         Revised, Page 37




Click to add JPEG file




               57
